 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   YOUNGER NURSING FACILITY
RESIDENTS WITH MENTAL ILLNESS:

      Preadmission Screening and
       Resident Review (PASRR)
     Implementation and Oversight




                       JANUARY 2001
                       OEI-05-99-00700
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                              HEADQUARTERS

Emily Melnick, Project Leader
                      Susan Burbach, Program Specialist
Ianna Kachoris, Program Analyst
                    Bambi Straw, Program Specialist
Stacy Thompson, Intern
                             Linda Moscoe, Program Analyst
Kristine Zeabart, Intern
                           Brian Ritchie, Program Analyst




    To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                      EXECUTIVE                         SUMMARY

PURPOSE

         To examine the safeguards that ensure the appropriate admission and mental health
         treatment of younger Medicaid beneficiaries, ages 22 to 64, who have a serious mental
         illness and reside in nursing facilities.

BACKGROUND

         This inspection is one in a series of Office of Inspector General reports on individuals with
         mental illness in nursing facilities. A follow-up inspection to this report, “Younger
         Nursing Facility Residents with Mental Illness: A Population Unidentified” (OEI-05-99-
         00701) is an attempt to determine the extent to which younger individuals with mental
         illness reside in nursing facilities.

Preadmission Screening and Resident Review (PASRR) -- Nursing Facility
Admission Requirements

         The Social Security Act does not allow a nursing facility to admit any resident who has a
         serious mental illness unless the State mental health authority has determined that the
         individual, because of a physical and mental condition, requires the level of services
         provided by a nursing facility. In addition, the State mental health authority must
         determine whether an individual requires “specialized services” for their mental illness, and
         must provide such services.

         The Omnibus Budget Reconciliation Act of 1987 (OBRA-87) mandated Preadmission
         Screening and Resident Reviews (PASRR). The intent of the PASRR process is to ensure
         that only individuals with serious mental illness who are in need of nursing facility care be
         admitted and continue to reside in nursing facilities, and to determine whether persons
         with serious mental illness need specialized mental health services.

The Olmstead Decision

         The 1999 Olmstead Supreme Court decision mandates that States “provide community-
         based treatment for persons with mental disabilities when the State’s treatment
         professionals determine that such placement is appropriate.” States must take into
         consideration their resources and the needs of other people with mental disabilities in
         making such determinations.

         We collected information and data from Medicaid programs and from surveys of State
         officials involved in mental health services and nursing home care. We made onsite visits
         to 19 purposively-selected nursing facilities in five States.


PASRR Implementation and Oversight                 i                                     OEI-05-99-00700
         We reviewed detailed information about 187 nursing facility resident Medicaid
         beneficiaries, ages 22 to 64, with a serious mental illness.


FINDINGS

Preadmission Screening and Resident Reviews are not in compliance with
Federal requirements

         The PASRR system is the primary mechanism by which individuals with mental illness in
         nursing facilities are monitored. We found little evidence that Level I PASRRs, which are
         screens to identify an individual’s mental illness, are completed. Only 47 percent (88 of
         187) of residents we sampled in the five case study States had a Level I PASRR screen in
         their nursing facility records. An initial Level II PASRR confirms the existence of a
         serious mental illness, the need for nursing facility services and the “specialized services” a
         resident may need. Our case file review revealed that only 41 percent (77 of 187) files had
         any evidence of a Level II PASRR. Most of these residents had only a determination
         letter or a form with the signature from a State contracted physician, not the actual
         assessment in their record.

         Level II PASRR reviews, hereafter referred to as reassessments, are triggered by a
         significant change in a resident’s mental health condition. These reassessments rarely
         occur. Sixteen of the 19 nursing facilities we visited had never contacted the appropriate
         State agency about a significant change in a resident’s mental health status. Our case file
         review indicated that only 29 percent (22 of 77) of individuals with an initial Level II
         PASRR, also had a Level II PASRR reassessment. All of these reassessments were
         completed at the time when an annual reassessment requirement was still in effect. The
         annual reassessment requirement was repealed in 1996.

PASRR does not ensure that mental health needs are assessed

         The Federal definition of “serious mental illness” puts forth multiple conditions to be met
         to classify an individual as requiring a Level II PASRR mental health assessment. This
         may enable States to avoid assessment of some residents with serious mental illness.

         Nursing facilities have their own admissions process to determine their ability to care for
         an applicant, which may not incorporate the PASRR assessment.

         The Level I PASRR screen is viewed by many nursing facilities in all five States we visited
         primarily as an indication of eligibility for Medicaid reimbursement, not as an evaluation
         tool.




PASRR Implementation and Oversight                 ii                                     OEI-05-99-00700
States may violate the intent of the Federal requirement to provide mental health
services

         States’ definitions of “specialized services” may enable them to avoid their responsibility
         to provide mental health services. Four of the 5 States we visited and 15 of the States
         responding to our survey define “specialized services” as 24-hour inpatient psychiatric
         treatment. Under this definition, a nursing facility is not a 24-hour psychiatric treatment
         facility and residents in nursing facilities are excluded from receiving “specialized
         services.” Limiting the definition in this way excludes the provision of certain mental
         health services to individuals in nursing facilities and relieves States of their responsibility
         to provide this care.

         Nursing facilities receive little information from the State regarding the Level II PASRR
         mental health evaluations. In the few cases where nursing facilities receive specific
         information, it is in the form of “recommended services” which the State does not require
         them to provide.

         Many respondents, including State agencies, Long-Term Care Ombudsmen, mental health
         advocates and nursing facilities, indicated that they are concerned that younger individuals
         with mental illness are not receiving mental health treatment in nursing facilities.

PASRR systems function with little State and Federal oversight

         States do not routinely ensure that Level I PASRR identification forms accurately reflect
         an applicant’s mental health status. States do not have a systematic process to ensure that
         an individual is getting the mental health services that were indicated as necessary or
         “recommended” on the Level II PASRR or Level II PASRR reassessment.

         Most States rely on the nursing facility survey agency to monitor the PASRR process.
         However, surveyors reported that monitoring the PASRR process is not their
         responsibility. The OBRA 87 survey requirements do not include a review of PASRR
         forms or process. Most State mental health authorities in our case study States do not
         consider it their responsibility to monitor or provide treatment for residents of nursing
         facilities with mental illness.

         States do not have a mechanism to ensure that PASRR Level II reassessments are
         appropriately triggered. Many nursing facilities, surveyors and State agencies indicate that
         the definition of “significant change” for nursing facility residents with mental illness and
         the criteria to trigger a Level II PASRR reassessment are unclear.

         The Health Care Financing Administration (HCFA) regional offices and headquarters do
         not currently monitor the PASRR process or provide related guidance to the States.
         State Long-Term Care Ombudsmen report that they primarily focus attention on the needs
         of geriatric nursing facility residents, not the younger population with mental illness.



PASRR Implementation and Oversight                  iii                                      OEI-05-99-00700
RECOMMENDATIONS

Improve States’ capacity to identify individuals with mental illness and determine
appropriate facility placement

         We recommend that HCFA:
         C     ensure completion of the Level I PASRR screens prior to nursing facility
               admission;
         C     require that Level II PASRR evaluations be triggered if at least one indicator of
               serious mental illness is identified; and
         C     outline and enforce State requirements for Level II PASRR evaluation summary
               reports that are to be shared with the admitting nursing facility.

Improve oversight of the PASRR process and access to mental health treatment

         We recommend that HCFA:

         C     provide regional PASRR training to surveyors and add a PASRR component to

               survey requirements;
         C     require the use of the Level II PASRR evaluation in care planning;
         C     require that State surveyors monitor to ensure care plan compliance; and
         C     provide States with technical assistance to develop an additional mechanism to
               monitor the PASRR process.

Ensure that placement of an individual with mental illness in a nursing facility is
not a means of avoiding responsibility for the provision of specialized mental
health services

         We recommend that HCFA:
         C     define specialized services that are to be provided by the State and made available
               to individuals with mental illness in nursing facilities.

Improve ability of nursing facilities to identify significant change and to make
appropriate referrals

         We recommend that HCFA:
         C     clarify the definition of significant change and implement a mechanism to ensure a
               Level II PASRR reassessment is completed.

Improve Federal monitoring and oversight

         We recommend that HCFA:

         C     clarify the role and responsibilities of the regional HCFA PASRR contact;

         C     require a standardized annual State report to include data regarding the number of

               Level I and II PASRRs completed and the placement and treatment results, by age;
               and


PASRR Implementation and Oversight               iv                                   OEI-05-99-00700
         C	       specify which unit(s) within HCFA have responsibility for ensuring appropriate
                  implementation, completion and compliance.

Improve the Level II PASRR process and ensure compliance with the Olmstead
Decision

         We recommend that HCFA:
         C	    require that State Medicaid agencies collaborate with State mental health
               authorities to identify and maintain a list of alternative community based treatments
               and to track the level of need and availability of such resources.

         We recommend that the Substance Abuse and Mental Health Services Administration

         (SAMHSA):

         C     provide annual guidance to State mental health authorities on appropriate

               treatment, needed specialized and other mental health services;
         C     periodically review State mental health authorities’ Level II determinations; and
         C     provide annual guidance to State mental health authorities to identify alternative
               treatment options for individuals being considered for nursing facility placement.

Clarify Agencies’ roles and responsibilities within the Department in overseeing
the PASRR process

         To improve implementation and oversight of the PASRR process, the Department should
         determine and delineate HCFA and SAMHSA’s responsibilities in overseeing the PASRR
         process.


AGENCY COMMENTS

         We received comments from the Health Care Financing Administration and the Substance
         Abuse and Mental Health Services Administration. The HCFA and SAMHSA concur
         with the majority of our recommendations. We feel that HCFA and SAMHSA’s
         commitment to the effectiveness of the PASRR process is of particular importance in light
         of the recent Olmstead Decision. Where appropriate, we changed the report to reflect both
         HCFA and SAMHSA’s comments. The full text of the comments are contained in
         Appendix B.

         The HCFA believes our recommendations will “help [them] make sound policy decisions
         about how best to protect the interests of younger Medicaid beneficiaries who have a
         serious mental illness...and reside in nursing facilities.” In addition, HCFA will “attempt to
         augment [our] recommendations with companion efforts that would expand community
         alternatives and will coordinate planning for PASRR improvements with those community
         service improvement efforts.” We would like to thank HCFA for their assistance in
         conducting this study and for providing us with substantive and insightful comments.




PASRR Implementation and Oversight                 v                                     OEI-05-99-00700
         The HCFA concurred in full with 24 of the 30 ways to achieve our recommendations.
         The agency proposes an alternative solution or will further consider six recommendations
         with which they do not concur. A discussion of HCFA’s comments are contained on
         pages 28 and 29 of the report.

         We would also like to thank SAMHSA for their assistance in conducting this study and for
         their supportive comments. The agency agrees in full with 5 of the 6 specific
         recommendations that apply to them. In addition, it concurs with our broader
         recommendation to determine and delineate HCFA and SAMHSA’s responsibilities in
         overseeing PASRR determinations. The SAMHSA is working together with HCFA in
         addressing the Olmstead Decision and other key areas regarding behavioral health
         services. A discussion of SAMSHA’s comments are contained on page 30 of the report.




PASRR Implementation and Oversight               vi                                  OEI-05-99-00700
                         TA B L E                      OF             CONTENTS

                                                                                                                               PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     PASRR screenings and assessments not in compliance with Federal requirements . . . . . . . 10


     PASRR does not ensure that mental health needs are assessed . . . . . . . . . . . . . . . . . . . . . . 12


     States may violate intent of Federal requirement to provide mental health services . . . . . . 14


     PASRR systems function with little State and Federal oversight . . . . . . . . . . . . . . . . . . . . . 17


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


APPENDICES

  A. One State has a special oversight branch to monitor PASRR process . . . . . . . . . . . . . . 31


     B. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32





PASRR Implementation and Oversight                                   vii                                               OEI-05-99-00700
                                     INTRODUCTION

    PURPOSE

              To examine the safeguards that ensure the appropriate admission and mental health
              treatment of younger Medicaid beneficiaries, ages 22 to 64, who have a serious mental
              illness and reside in nursing facilities.


    BACKGROUND

              In 1955, State mental health hospitals began reducing their resident populations and
              many patients were transferred to nursing facilities and other residential facilities.1 In
              1987, legislation was enacted to prevent the inappropriate admission and retention of
              people with serious mental illness and determine their need for specialized services.
              The Omnibus Budget Reconciliation Act of 1987 (OBRA-87) mandated preadmission
              screening to ensure that only individuals with serious mental illness in need of nursing
              facility care be admitted to nursing facilities, that these individuals’ need for
              specialized services be determined, that facilities provide active mental health
              treatment to residents with a primary mental illness and that yearly reviews be
              conducted for each resident.2 The preadmission screening and resident review
              (PASRR) is the primary mechanism that is used to ensure appropriate nursing facility
              placement and that mental health needs are addressed.

              We focus our attention in this report on younger individuals with mental illness who
              are ages 22 to 64. Both Medicaid and Medicare impose limitations on coverage for
              the long-term care of individuals with mental illness in this age group.3 They may be
              more vulnerable to difficulties in accessing mental health treatment due to these
              restrictions. In addition, according to the Surgeon General’s report, adults with
              mental illness in mid-life may confront many special service delivery problems,
              including proper identification and treatment.




         1
                  Psychiatric Services 51:354-358, March 2000.
         2	
                  The Nursing Home Facility Resident Reform Act, P.L. 104-315 in 1996, repealed the annual
                  review requirement.
                  OBRA 1990 replaced the term “active mental health treatment” with “specialized services.”
         3	
                  42 C.F.R. 1905(h)(1)(C). The 21st birthday is the cut off point for benefits unless the beneficiary
                  is under psychiatric care prior to and following his/her 22nd birthday — whichever comes first.



PASRR Implementation and Oversight                          1                                          OEI-05-99-00700
    Funding for Mental Health Services

             Medicaid funds both outpatient and inpatient services including long-term service
             through hospitalization and residential treatment for individuals with mental illness
             under 21.4 Certain mental health services are covered by Medicare for individuals
             with mental illness 65 and over.

             The primary financial responsibility to cover the long-term care of individuals with
             mental illness ages 21 to 64 lies with the State mental health authorities (SMHA). The
             Social Security Act states that services provided in an Institution for Mental Disease
             (IMD) will not be covered by Medicaid for individuals ages 21 to 64. The Act defines
             such institutions as “a hospital, nursing facility, or other institution of more than 16
             beds, that is primarily engaged in providing diagnosis, treatment, or care of persons
             with mental diseases, including medical attention, nursing care and related services.”5
             Medicaid ruled that it would pay for the care of individuals with mental illness in
             nursing facilities where 50 percent or less of the facility’s beds were filled by residents
             with mental illness. Therefore, there are financial incentives to place a younger
             individual with mental illness into a nursing facility in order to receive payment from
             Medicaid rather than the State mental health authority.

             The Substance Abuse and Mental Health Services Administration’s (SAMHSA)
             Community Mental Health Services Block Grant is given to States to provide mental
             health services to individuals with mental diseases. The SAMHSA’s Center for Mental
             Health Services is mandated to assume a leadership role in delivering mental health
             services, generating and applying new knowledge, and establishing national mental
             health policy.6 The Center helps States improve and increase the quality and range of
             their treatment, rehabilitation, and support services for people with mental illness.

    Placement for Individuals with Mental Illness

             Nursing facilities have traditionally been “the last refuge” for individuals with mental
             illness. Individuals with mental illness may find themselves in a nursing facility because
             of physical and behavioral problems, the lack of caretakers, or insufficient community
             services, including long-term care.”7 Federal nursing facility regulations stipulate that
             when evaluating an individual with mental illness for nursing facility placement,
             evaluators must first assess whether the individual’s total needs are such




         4
                  1999 Surgeon General’s Report
         5
                  SSA Section 1905 (h)(2)(i)


         6
                  ADAMHA Reorganization Act, Public Law 102-321(1992 ).

         7
                  American Psychiatric Association, Psychiatric Services 51:354-358, (March 2000).




PASRR Implementation and Oversight                       2                                       OEI-05-99-00700
               that they can be met in an appropriate community setting. If not, the evaluation must
               determine if inpatient care is appropriate and desired, and whether a nursing facility or
               another institution such as a psychiatric hospital would be an appropriate placement.8
               The availability of long-term care community mental health services varies widely by
               State and community.

    Olmstead Decision

               The Administration has recently brought into question the long-term care of
               individuals with mental illness in nursing facilities. The 1999 Olmstead Supreme Court
               decision mandates that States “provide community-based treatment for persons with
               mental disabilities when the State’s treatment professionals determine that such
               placement is appropriate.” States must take into consideration their resources and the
               needs of other people with mental disabilities in making such determinations. In
               response to the decision, the Secretary issued a letter to all governors in January 2000,
               stating that “no person should have to live in a nursing facility or other institution if he
               or she can live in his or her community.” Moreover, the Secretary said that
               “unnecessary institutionalization of individuals with disabilities is discrimination under
               the Americans with Disabilities Act.”9

    Surgeon General’s Report

               Additional recent attention to the care of individuals with mental illness in nursing
               facilities was initiated by the 1999 U.S. Surgeon General’s report on Mental Health
               which indicates that there are “major barriers” that prevent the delivery of appropriate
               care to residents of nursing facilities who have mental illness.10 Researchers have
               found that, despite a high prevalence of individuals with mental illness residing in
               nursing facilities, these facilities are ill equipped to meet their needs.11 Further,
               experts believe that the placement of non-elderly residents with mental illness in
               nursing facilities with elderly residents raises questions regarding the ability of nursing
               facilities to provide appropriate care to both populations. There are significant
               differences between the needs of the geriatric population and of younger adults with
               mental illness that reside in nursing facilities.

               The number of individuals with serious mental illness who are residents of nursing
               facilities is unknown. We examined various data sources to determine



         8
                   42 C.F.R. §483.132 (a) (1999).
         9
                   “U.S. Seeks More Care for Disabled Outside Institutions. New York Times, February 13, 2000
         10
                   Mental Health: A Report of the Surgeon General, 374 (1999).
         11	
                   Lombardo, N.E. Barriers to mental health services for nursing home residents. Washington, DC:
                   American Association of Retired Persons (1994).



PASRR Implementation and Oversight                        3                                       OEI-05-99-00700
               the number of individuals and costs pertaining to the care of persons with mental
               illness in nursing facilities, primarily focusing of individuals ages 22 to 64.

    Preadmission Screening and Resident Reassessment -- Nursing Facility
    Admission Requirements

               The Social Security Act [Section 1919(b)(3)(F)(i)] does not allow a nursing facility to
               admit any resident who has a mental illness unless the State mental health authority has
               determined that the individual, because of a physical and mental condition, requires the
               level of services provided by a nursing facility. In addition, the State mental health
               authority must determine whether an individual requires “specialized services” for
               his/her mental illness.

               In order to identify individuals who may have a serious mental illness, the Nursing
               Home Reform Act of 1987 required that all nursing home applicants, regardless of
               payment source, be given a preadmission screening and annual resident review
               (PASARR).12 Effective in October 1996, the Federal requirement for annual resident
               review or reassessment was eliminated and the screen is now referred to as the
               preadmission screening and resident review (PASRR).13 The screening to identify an
               applicant’s mental illness is referred to as the Level I PASRR or Level I PASRR
               screen. Under Federal regulations, an individual is considered to have a serious mental
               illness if they meet requirements on diagnosis, level of impairment and duration of
               illness.14 Specifically, an individual must have a major mental illness diagnosis, not
               including dementia and organic brain disorders including Alzheimer’s disease, (unless
               the primary diagnosis is a serious mental illness), a functional limitation within the past
               3 to 6 months and have had psychiatric treatment more intensive than outpatient care
               in the past 2 years. Although there are minimum Federal PASRR requirements, States
               may design their own PASRR forms and may choose a more inclusive criteria for
               identifying a serious mental illness.

               An “independent physical and mental evaluation” referred to as the Level II PASRR
               must be completed for individuals who meet the requirements of serious mental illness,
               as indicated on the Level I PASRR screen. The Level II PASRR evaluation must be
               completed by an independent entity with whom the State Medicaid agency contracts.15
               The Level II PASRR evaluation objectives are to:


         12	
                  Omnibus Budget Reconciliation Act of 1987, P.L. 100-203. The PASRR requirement also
                  applies to individuals with mental retardation or developmental disabilities.

         13
                  The Nursing Home Facility Resident Act, P.L. 104-315.

         14
                  42 C.F.R. §483.102 (b)(1)(1999).
         15	
                  The Level II PASRR may be contracted to a private entity or may be contracted to another State
                  agency. In 2 of the 5 States we visited, the completion of the Level II PASRR and the
                  determination for nursing facility placement is contracted to the State Department on Aging.



PASRR Implementation and Oversight                        4                                        OEI-05-99-00700
                       C        confirm whether or not applicants have a serious and persistent mental
                                illness,
                       C        determine whether such applicants require nursing facility services, and
                       C        determine whether such applicants require specialized services for their
                                mental illness.

              The SMHA, based upon the independent physical and mental evaluation, makes the
              final determination on whether a person requires nursing facility placement and
              specialized services. The SMHA may verbally convey Level II PASRR determinations
              to nursing facilities and individuals and must subsequently confirm the determination in
              writing.16

              Further, once an individual with mental illness is admitted to a nursing facility, if there
              is a “significant change” in his/her physical or mental condition “which has a bearing
              on their active treatment needs,” the nursing facility is required to promptly notify the
              SMHA. The Health Care Financing Administration has instructed that “significant
              change” should be identified when a resident’s Minimum Data Set (MDS) assessment
              indicates that "a more immediate annual resident review is warranted."17 The SMHA
              is then required to conduct a Level II resident review or reassessment.18

    Mental Health Services for Nursing Facility Residents with Mental Illness

              When notifying individuals and nursing facilities of approval for nursing facility level of

              care, State mental health authorities must also include whether “specialized services”

              are necessary. The SMHA must consider the need for specialized service when

              making the determination concerning the need for nursing facility service. 

              “Specialized services” are defined as “services specified by the State which, combined

              with services provided by the nursing facility result in the continuous and aggressive

              implementation of an individualized plan of care.”19 The SMHA must provide or

              arrange for the provision of specialized services to all nursing facility residents with

              mental illness “whose needs are such that continuous supervision, treatment and

              training by qualified mental health professionals is necessary.”20





         16
                  42 C.F.R. §483.112(c)(2)(1999).

         17
                  HCFA December 1996 memorandum to the Division of Medicaid Regional Administrators. 

         18
                  The Nursing Home Facility Resident Act, P.L. 104-315.

         19
                  42 C.F.R. §483.112(a)(2)(1999).

         20
                  42 C.F.R. §483.112(b)(1999). 




PASRR Implementation and Oversight                       5                                  OEI-05-99-00700
              Mental health services of “lesser intensity than specialized services” must be provided
              by nursing facilities. The Omnibus Reconciliation Act of 1990 added mental health
              services that are not the responsibility of the State to provide, to the list of services a
              nursing facility is required to provide.21 This was to clarify that any medically
              necessary mental health service a resident needs that is not a “specialized service” is
              the responsibility of the nursing facility to provide. These services are not reimbursed
              separately by Medicaid, rather they are considered a condition of participation and
              must be paid for by the nursing facility or under some other arrangement with the
              State.

              Although Federal admission criteria mandates that facilities accept only those residents
              they are qualified to care for, no clear criteria exist for making such judgements. To
              meet requirements for treating individuals with mental illness, nursing facilities must
              have the capacity to deliver mental health care by trained mental health professionals.
              However, the Surgeon General’s report indicates that Medicaid reimbursements for
              nursing facility residents have been too low to provide a strong incentive for
              participation by highly trained mental health providers.22

    Monitoring, Survey and Certification Requirements

              Responsibility for enforcing PASRR requirements is shared by the State Medicaid
              agency and HCFA. State Medicaid agencies are required to deny Medicaid payments
              to nursing facilities if they provide services to individuals who have not been
              determined by PASRR to need nursing facility services. The HCFA is responsible for
              monitoring States’ compliance with Federal PASRR requirements. Specifically,
              HCFA is required to review a sufficient number of cases to allow reasonable inferences
              in regard to each State’s compliance with PASRR requirements regarding the
              discharge and placement of residents with specialized service needs and to report
              annually to Congress on the extent of State compliance with PASRR requirements.23

              Medicaid/Medicare nursing facility surveyors may, through the course of their survey
              and certification program, monitor the treatment of nursing facility residents with
              mental illness. The Nursing Home Reform Act of 1987 amended the Medicaid
              program to establish a set of survey and certification requirements for all nursing
              facilities.24 States are responsible for surveying and certifying that nursing facilities
              comply with Medicaid nursing facility requirements. Certification of facilities must be
              conducted by a multi-disciplinary team of professionals on an unannounced basis



         21
                  Section 1919(b)(4)(vii) of the Social Security Act
         22
                  Mental Health: A Report of the Surgeon General (1999).
         23
                  42 U.S.C. 1396r(f)(8)(B) and OBRA 1990, §4801(b)(5)(B).
         24
                   OBRA 1987, P.L. 100-203.



PASRR Implementation and Oversight                          6                               OEI-05-99-00700
             at least every 15 months. The Act also requires States to establish a process for the
             receipt, review and investigation of allegations of resident neglect and abuse.

             Each State has a Long-Term Care (LTC) Ombudsman office which in conjunction
             with local Area Offices on Aging oversee local Long-Term Care Ombudsmen who are
             advocates for residents of nursing facilities, board and care homes, assisted living
             facilities and similar adult care facilities. The LTC Ombudsman program, established
             under the Older Americans Act, is administered by the Administration on Aging
             (AoA). Nationally, thousands of volunteer LTC Ombudsmen regularly visit long-term
             care facilities and monitor conditions and care. Any resident of a nursing facility,
             including those with mental illness, may fall under the auspices of the LTC
             Ombudsman program responsibilities.


    SCOPE

             This report evaluates State and Federal safeguards that ensure the appropriate
             admission and mental health treatment of individuals with mental illness residing in
             nursing facilities. We focused our study population on Medicaid recipients between
             the ages of 22 and 64 with a “severe and persistent mental illness” as their primary or
             secondary diagnosis. We did not evaluate residents with dementia, Alzheimer’s
             disease or other organic brain disorders. We focused on this population because
             evidence suggests there are fundamental features of care and protection unique to
             younger adults, ages 22 to 64, with severe and persistent mental illness residing in the
             nursing facilities.

             We examined States’ PASRR processes which are designed to determine appropriate
             nursing facility placement and necessary mental health services for nursing facility
             applicants with mental illness. The PASRR process also identifies and evaluates
             nursing facility applicants with mental retardation and developmental disabilities. We
             have limited our study to the process as it relates to individuals with mental illness.

             We examined the systems in place to monitor the care of persons with mental illness in
             long-term care facilities including Federal and State survey and certification
             requirements. We examined coordination between State agencies regarding the
             oversight and treatment of this population. We did not conduct a medical review of
             resident records.

             This inspection is one in a series of Office of Inspector General reports on individuals
             with mental illness in nursing facilities. A follow-up inspection to this report,
             “Younger Nursing Facility Residents with Mental Illness: A Population Unidentified”
             (OEI-05-99-00701) is an attempt to determine the extent to which younger individuals
             with mental illness reside in nursing facilities.




PASRR Implementation and Oversight                   7                                   OEI-05-99-00700
    METHODOLOGY

              We made onsite visits to five States -- California, Florida, Kansas, Minnesota and
              Pennsylvania -- to conduct State agency interviews, visit nursing facilities and conduct
              case file reviews. We selected these States based on the high percentage of residents
              with a serious mental illness as their primary or secondary diagnosis in individual
              nursing facilities as identified by the Federal Online Survey and Certification Reporting
              System (OSCAR) data. In addition, we selected States based on their submission of
              data to the Federal Medicaid Statistical Information System (MSIS) data system as of
              Fiscal Year 1998 and geographic location.25 In each of the 5 case study States, we
              selected 4 nursing facilities based on the high percentage of residents ages, 22 to 64,
              with a primary or secondary diagnosis of mental illness being cared for in that facility
              and geographic proximity. One sampled nursing facility prohibited our entry.

              In the 5 case study States, we visited 19 nursing facilities and reviewed 187 resident
              case files of current nursing facility Medicaid residents between the ages of 22 and 64
              with a major mental illness diagnosis from the International Classification of Diseases,
              9th Revision (ICD-9) codes 293-301, 311, 312. At each of the nursing facilities we
              visited, we determined if a Level I and Level II PASRR existed for each resident with
              a mental illness. In addition, we interviewed the facility director, social service staff
              and other staff as available.

              We interviewed State representatives from Departments of Mental Health, Medicaid
              and Medicare/Medicaid Survey agencies and Long-Term Care Ombudsmen agencies,
              as well as mental health protection and advocacy representatives and nursing home
              associations. We also interviewed HCFA regional survey and certification staff and
              PASRR contacts.

              For the 39 States that submitted Medicaid claims and eligibility information to HCFA’s
              MSIS system in 1998, we identified the number of nursing facility residents between
              the ages of 22 and 64 with a primary or secondary diagnoses of severe mental illness
              that had a Medicaid claim.

              We used the Federal Minimum Data Set (MDS) to examine the number of assessments
              of nursing facility residents, ages 22 to 64, with a psychiatric diagnosis conducted
              during January through June 1999. Nationally, during this period, there were 116, 287
              assessments of Medicaid nursing facility residents, ages 22 to 64. Of these, 73,586 (63
              percent) were for residents with a psychiatric diagnosis. Of these, 17,553 (15 percent)
              were initial assessments for individuals with a psychiatric diagnosis admitted during
              this time period. There were 45,710 Medicaid nursing facility residents with a mental
              illness, ages 22 to 64, during this period.




         25
                  All 5 States we visited submitted data to the Federal MSIS as of 1998.



PASRR Implementation and Oversight                         8                               OEI-05-99-00700
             We also conducted a survey of all 50 States for each of the 4 different entities --
             Mental Health, Medicaid and State Medicare/Medicaid Survey agencies and State
             Long Term Care Ombudsmen. The intent of the survey was to understand the extent
             to which individuals with serious mental illness are being cared for in nursing facilities
             in each State, as well as the extent to which State regulations pertain to this
             population. We received 129 out of 200 (64.5 percent) surveys — 42 from
             Departments of Mental Health, 36 from Medicaid agencies, 29 from State
             Medicare/Medicaid Survey agencies and 22 from the State LTC Ombudsmen.

             We conducted a purposive sample in order to give us greater understanding of
             individuals with mental illness, ages 22 to 64 who are nursing facility residents. We do
             not project our findings.

             We conducted our review in accordance with the Quality Standards for Inspections
             issued by the President’s Council on Integrity and Efficiency.




PASRR Implementation and Oversight                    9                                    OEI-05-99-00700
                                           FINDINGS


    PASRR screenings and assessments are not in
    compliance with Federal requirements
    Only 47 percent (88 of 187) of the residents we sampled in the five case study
    States had a Level I PASRR screen in their nursing facility records

              Level I PASRR screens do not ensure that residents with mental illness are identified.
              Level I PASRR screens were found infrequently at nursing facilities. Although
              required for all residents of nursing facilities, only 47 percent (88 of 187) of residents
              we sampled in the five case study States had a Level I PASRR screen in their case file
              or at the nursing facility. For the case study States, the average rate of Level I
              PASRR screens in the case files that we sampled ranged from 11 to 100 percent by
              State. Seventeen percent (15 out of 88) of the Level I PASRR screens we found were
              not completed prior to or on the date of admission to the nursing facility. Fourteen
              Level I PASRR screens were dated more than 2 months after admission.

    There is little evidence that initial Level II PASRRs were conducted, and Level
    II reassessments rarely occurred for resident case files we reviewed

              Only 41 percent (77 of 187) of the resident files we reviewed had evidence of a Level
              II PASRR. Our case file review revealed that most of these residents had only a
              determination letter or a form with the signature from a State contracted physician, not
              the actual assessment.

              Our case file review indicated that only 29 percent (22 of 77) of individuals with an
              initial Level II PASRR, also had an additional Level II PASRR reassessment. All of
              the 22 Level II PASRR reassessments we encountered were completed while the
              annual reassessment requirement was still in effect.26 All five case study States
              eliminated the annual Level II PASRR review requirement for nursing facility
              residents, although States have the option of continuing it. Seven States in our 50
              State survey indicated that they still require an annual PASRR review or reassessment.
               Sixteen out of 19 nursing facilities indicated that Level II PASRR reassessment of
              their residents have never been conducted.

              Sixteen of 19 nursing facilities are unclear what qualifies as a “significant change” and
              could not identify how a “significant change” should trigger a Level II PASRR
              reassessment. Since the repeal of the annual review or reassessment, nursing facilities

         26
                  In 1996 the annual requirement for the Level II PASRRs was eliminated.



PASRR Implementation and Oversight                      10                                 OEI-05-99-00700
             must notify the State mental health authority when a resident with mental illness has a
             “significant change” in his/her physical or mental condition.

             Sixteen of the 19 nursing facilities we visited had never contacted the appropriate
             State agency about the significant change in residents' mental health status. Ten of the
             nursing facilities we visited were aware of the Level II reassessment process if a
             “significant change” occurred. In two of our case study States, we found no evidence
             that the Level II PASRR reassessment was completed out of the 72 reviewed files in
             those States. In two other States, we found only one reassessment in each State out
             of a total of 62 reviewed files for those States. In the fifth State, we found 20
             reassessments (37 percent) in the 53 files we reviewed. In two nursing facilities, in
             two different States, the Director of Nursing said that a Level II PASRR reassessment
             was not triggered for residents who were diagnosed with bipolar disorders after
             admission.

             Some State respondents and nursing facilities identified the Minimum Data Set (MDS)
             assessments as the primary mechanism by which a Level II PASRR reassessment
             would be triggered. However, while HCFA has suggested the use of the MDS to
             trigger Level II PASRR reassessments, the MDS captures an “overall change in care
             status” which is not necessarily an indicator for a mental health status change. Our
             case file review revealed that none of the 21 residents, with an “improved” or
             “deteriorated” care status on either their most recent MDS assessment or one
             completed between April and June 1999, had a Level II PASRR reassessment. One
             case study State reported that there is a movement to begin developing a pilot MDS
             protocol that contains criteria specific to individuals with mental illness.

          Case File Review — Evidence of PASRRs in Resident Files or Nursing Facility

                            State    Total Case     Level Is   Level IIs   Level II
                                     File Reviews                          Reassessment
                                                                           s

                            1        39             32         10          0

                            2        33             6          1           0

                            3        53             6          31          20

                            4        40             22         22          1

                            5        22             22         13          1

                            Total    187            88         77          22




PASRR Implementation and Oversight                       11                               OEI-05-99-00700
    PASRR does not ensure that mental health needs are
    assessed
    Federal definition of “serious mental illness” may limit Level II PASRR
    assessments

              State Level I PASRR screens may not trigger a Level II PASRR mental health
              assessment for an individual with a severe and persistent mental illness. Our case file
              review revealed that 41 percent (77 of 187) individuals with a serious mental illness
              diagnosis had a Level II PASRR. The Federal definition of “serious mental illness”
              may enable States to avoid assessment of some residents with a serious mental illness
              by requiring that multiple conditions be met to classify them as requiring a Level II
              PASRR assessment. An individual is considered to have a serious mental illness if they
              have a major mental illness diagnosis, a functional limitation within the past 3 to 6
              months and have had psychiatric treatment more intensive than outpatient care in the
              past 2 years.27

              The Federal definition of serious mental illness limits those individuals who are
              required to undergo a Level II PASRR mental health evaluation. For example,
              individuals with a serious mental illness diagnosis, but no history of hospitalization in
              the past 2 years, are not required to be screened for needed mental health treatment or
              services before they are admitted to a nursing facility. Individuals with no treatment
              history, such as homeless individuals with a mental illness or applicants who have
              avoided mental health treatment due to stigma, may continue to have their mental
              health needs ignored.

              Although there are minimum Federal PASRR requirements, States may design their
              own PASRR forms and may adopt a more inclusive definition of serious mental illness
              to facilitate referring more individuals to a Level II PASRR.28 However, most States
              infer from the Federal requirement that all three conditions must be met to warrant a
              Level II PASRR mental health assessment. Fifty percent (15 of 30) State Level I
              PASRR forms that we reviewed require that all three conditions related to mental
              illness must be met to necessitate triggering a mental health assessment. Twenty-six
              percent of the States (8 of 30) require that only one or two criteria be met to trigger
              the Level II assessment.

              One State reported that they require individuals who meet the Federal definition of
              serious mental illness to have a Level II PASRR, but they also require applicants who
              are considered a danger to self or others to have a Level II whether or not they have a
              mental illness diagnosis. This State also gives nursing facilities the latitude to request


         27
                  42 C.F.R. §483.102(b)(1)(1999).
         28
                  HCFA



PASRR Implementation and Oversight                    12                                   OEI-05-99-00700
             that a Level II be done prior to admission or at any point during their stay at the
             nursing facility, if there are indicators of a serious mental illness, but may not fully
             meet the Federal definition. For seven of the forms that we reviewed, it was unclear
             what conditions needed to be met to trigger the Level II PASRR assessment.

    Nursing facilities may not incorporate PASRR into their admissions process;
    PASRR is viewed as an eligibility indicator, not an evaluation tool

             Nursing facilities have their own individual admissions process to determine their
             ability to care for an applicant, which may not take into consideration the PASRR
             assessment. Seven of the 19 facilities we visited reported that they did not use the
             PASRR to determine if they could accept a resident. Many facilities reported that
             their process is more in-depth and accurate than the Level I PASRR forms which only
             asks for “minimal information” and is “only a snap shot” of the clinical needs that an
             individual may have. Many facilities interview potential residents face to face, as
             opposed to the Level I PASRR screen which they view as only a “paper review.” A
             nursing facility that we visited reported that they never look at the PASRRs and that
             they are filed in a folder separate from the residents’ files. When we requested
             reviewing Level I and Level II PASRRs for sampled residents, this facility could not
             locate any of them. One facility thought that the State had discontinued the PASRR
             process.

             State and nursing facility respondents indicate that the PASRR is what the States use
             to determine residents’ nursing facility eligibility. In some States, the Level I PASRR
             is sent to the Medicaid office along with the Medicaid reimbursement form, and in
             others it is used to determine case mix reimbursement. As such, most nursing facilities
             we visited view the Level I PASRR as a tool to determine Medicaid eligibility rather
             than as an evaluation tool. These nursing facilities view the Level I PASRR as a
             formality and, more specifically, as an affirmation of applicant eligibility from the
             State. The Level I PASRR authorizes a short stay until the Level II is completed.

             One facility reported that they would not be paid without the Level I PASRR screen,
             but rely more on a psychological profile than the PASRR. Another State agency
             respondent stated that the Level I PASRR is “not a medical instrument and anyone
             with knowledge of the applicant may complete it.” A respondent from a State mental
             health authority reported that they “don’t know that [the] Level I PASRR [process] is
             a good way of matching what a person needs with placement [because it is] structured
             more on eligibility versus needed resources.”




PASRR Implementation and Oversight                   13                                   OEI-05-99-00700
    States may violate the intent of the Federal requirement to
    provide mental health services
              Implementation of the PASRR process may limit younger residents of nursing facilities
              access to mental health services due to: 1) a definition of "specialized services" that
              excludes residents of nursing facilities; 2) nursing facilities’ inability to address Level II
              PASRR recommendations, when available, in treatment and care planning process; and
              3) a lack of coordination between States and nursing facilities to provide
              recommended mental health services.

    States’ definitions of “specialized services” may enable them to avoid their
    responsibility to provide mental health services

              An individual admitted to a nursing facility may require specialized services as
              determined by the Level II PASRR. States may adopt their own definition of
              specialized services. The HCFA describes specialized services as “services specified
              by the State which combined with services provided by the nursing facility, result in
              the continuous and aggressive implementation of an individualized plan of care.”29
              Four of the five States we visited and 15 of 42 State mental health authorities
              responding to our survey define “specialized services” as 24-hour inpatient psychiatric
              treatment for an acute episode of mental illness. Under this definition, a nursing
              facility is not a 24-hour psychiatric treatment facility and thus nursing facility residents
              are excluded from receiving “specialized services.”

              By defining specialized services as 24-hour inpatient psychiatric treatment, States may
              avoid providing necessary mental health services to nursing facility residents with
              mental illness and shift this responsibility onto nursing facilities. In narrowing the
              scope of specialized services that the State is required to provide, States broaden the
              scope of services of “lesser intensity” that nursing facilities are required to provide.
              All of the States we visited indicated that if an individual requires the level of care
              identified as a specialized service, the individual would not be approved for nursing
              facility residence.

              In 3 of the 5 case study States, the State makes “recommendations” for mental health
              services for an individual when notifying a nursing facility of approval for placement as
              part of the Level II PASRR process. Because they are not defined as “specialized
              services,” the States are not required to, nor did we find that they provide or pay for
              these recommended services. Further, States do not follow up to ensure that nursing
              facilities are meeting or attempting to implement these recommendations. States’
              “recommendations” include “group therapy,” “individual psychotherapy,” “continuing
              psychiatric evaluations,” “independent living training” and “vocational training.”



         29
                  42 C.F.R. §483.120 (1999).



PASRR Implementation and Oversight                     14                                     OEI-05-99-00700
    Nursing facility residents with mental illness may have difficulty accessing
    more intensive “specialized services”

             Even when a nursing facility resident with mental illness is determined to require
             "specialized services," these individuals are not always able to access such services.
             Our case file review revealed that 5 of the 77 residents (7 percent) who had a Level II
             PASRR assessment were identified as needing specialized services. Due to the States’
             definition of specialized services as 24-hour inpatient care or a level of mental health
             care more intensive than a nursing facility, these five residents may need 24-hour care
             and may have been inappropriately placed in a nursing facility. These residents may
             also have had a difficult time accessing more appropriate care and were thus unable to
             leave the facility, despite the States' PASRR recommendation.

             In 3 of the 5 case study States, nursing facilities reported that they have difficulty
             linking their residents to specialized services when a resident is experiencing an acute
             episode of mental illness and requires a more specialized setting or 24-hour inpatient
             treatment.

             Thirty percent (23 of 76) of State mental health authority and Medicaid agency
             respondents indicated that access to specialized services was an issue of great concern
             regarding the treatment of individuals with mental illness in nursing facilities. One
             nursing facility indicated that one of its residents was identified by the State as
             inappropriate for a nursing facility and instead needed to be placed in a State
             institution for mental diseases. However, the nursing facility was unable to find a
             facility willing to accept their resident into the program.

    The Level II PASRR evaluation does not appear to be used in care planning

             Most nursing facility respondents indicated that Level II PASRR evaluations are not
             used in the treatment or care planning process. The actual physical and mental
             evaluation upon which the determination is based, is rarely sent to nursing facilities.
             Most nursing facilities responded that they never see the results of the Level II
             PASRRs. Four of the five States we visited send out a letter documenting completion
             of the Level II PASRR and informing the nursing facility of the determination for
             placement. In the one case study State where nursing facilities may receive a copy of
             the evaluation, one nursing facility indicated that their procedure is to send the Level II
             evaluation directly to the medical records unit without the staff social worker’s review.


             Other than the Level II PASRR determination letters with “recommended” mental
             health services, nursing facilities get little information from the State regarding the
             treatment needs of an individual based on the PASRR process. In one State, a
             contracted physician visits a nursing facility and signs a standardized form in the
             residents file, logging that it has been completed. In this State, nursing facilities report
             that State-contracted Level II PASRR evaluators complete the Level II PASRR



PASRR Implementation and Oversight                   15                                    OEI-05-99-00700
              mental health evaluation for approximately two of every five residents with a mental
              illness. One nursing facility reported that “aside from the letter from the State
              indicating that the Level II had been completed, the nursing facility doesn’t get
              feedback” or additional information regarding the Level II PASRR mental health
              evaluation.

    Respondents are concerned that younger nursing facility residents with
    mental illness may not have access to mental health services

              Respondents from 40 States, including State agencies, LTC Ombudsmen, mental
              health advocates and nursing facilities, indicated that they are concerned that
              individuals with mental illness are not accessing mental health treatment in nursing
              facilities. Twenty-seven of 76 State Mental Health and Medicaid agency survey
              respondents indicated that access to necessary mental health care was an issue of great
              concern. Eight respondents from four case study States indicated that nursing
              facilities primarily provide medication management for their residents with mental
              illness.

              State agency respondents in the five case study States indicated that some nursing
              facilities are more capable of providing linkages to mental health services than others.
              However, most nursing facilities reported that they do not have funding to provide
              necessary mental health services, bring in additional staff and/or arrange for
              transportation. One State indicated that community psychiatric interventions funded
              by State funds are not permitted in a nursing facility since nursing facility psychiatric
              care in that State is considered to be “a self-contained program appropriate and
              complete for clients at this level of care.”

              Federal Financial Participation (FFP) is not available for specialized [mental health]
              services furnished to nursing facility residents as nursing facility services.30 States,
              however, receive FFP for services that are Medicaid optional benefits under their State
              plan services. For example, States may choose to cover psychologist, rehabilitative,
              case management, clinic and medical social worker’s services for nursing facility
              residents.

              States and nursing facilities we visited rarely coordinate to provide mental health
              services to nursing facility residents. This lack of coordination may limit residents’
              access to mental health services. Most nursing facility respondents indicate that there
              is little cooperation from the State in linking their residents to State or county mental
              health services. In one State, individuals with mental illness who have a case manager
              prior to admission may retain them to assist in accessing additional mental health
              services. In another State, the protection and advocacy agency indicated that if a
              resident with mental illness has a case manager when s/he enters a nursing facility



         30
                  42 C.F.R. §483.124 (1999).



PASRR Implementation and Oversight                    16                                   OEI-05-99-00700
             they lose their case manager. The State believes that once a resident with mental
             illness is in a nursing facility, they no longer need the case manager, seeing him/her as
             duplicative of the services the nursing facility should provide.

             Most of the protection and advocacy respondents in our case study States expressed
             concern about the mental health treatment received by individuals with mental illness
             in nursing facilities. They were also concerned with the State’s ability to monitor these
             individuals, but were not particularly focused on this issue. Three of five advocates
             reported their concern about the lack of mental health background and training of
             nursing facility employees working with this population. A few advocates stated that
             they believe that if there were other mental health supports available in the community,
             then States would not be placing younger individuals with mental illness in nursing
             facilities. Many State and nursing facility respondents reported that individuals with
             mental illness lack the strong type of advocacy community that helps individuals with
             developmental disabilities.

             While most State protection and advocacy agencies are not focused on nursing facility
             residents with mental illness, one case study State protection and advocacy agency has
             frequently been involved with this population. Currently this State’s protection and
             advocacy agency is involved in a law suit regarding individuals with mental illness who
             are residents of a nursing facility who are not being informed of, assessed for, or
             provided with long-term care services at home or in the community.



    PASRR systems function with little State and Federal
    oversight
             In four of the five case study States, State agency respondents reported they were not
             aware of younger individuals with mental illness, ages 22 to 64, who were residing in
             nursing facilities without a physical co-morbidity and if there were, that it was a
             negligibly small population. However, we found that all five case study States housed
             residents with mental illness without a co-existing physical illness in nursing facilities.
             In two of the five States, the majority of files we reviewed consisted of individuals
             with mental illness without a physical diagnosis. We visited nursing facilities in three
             States where the majority of individuals in that facility had only a mental illness.

    States do not systematically monitor the PASRR process

             States do not routinely ensure that Level I PASRR forms accurately reflect an
             applicant’s mental health status. States are relying on Level I PASRR screens that are
             completed by individuals who may not have any mental health training or background.
             In three of the five States we visited, those who complete the Level I PASRR screen,
             e.g. nursing facility and hospital staff, may not have a mental health




PASRR Implementation and Oversight                   17                                    OEI-05-99-00700
              background or training.31 In completing the Level I PASRR screen, nursing facilities
              may rely on mental health background information received from the applicant or a
              family member.

              Minimal State oversight of the accuracy of the Level I PASRR form enables the
              placement of individuals with mental illness in nursing facilities without the placements
              being scrutinized. One facility reported that they heard that the county who
              administers the PASRR admissions process was “going to be selective [about
              admissions], but we have only had one case denied for admission in the past 9
              months.” One State Medicaid agency believes the PASRR process is adequate based
              on the absence of identified or perceived problems.

              States do not have a systematic process to ensure that individuals are getting the
              mental health services that were indicated as necessary or “recommended”on the Level
              II PASRR or a Level II PASRR reassessment. Services are written on Level IIs as
              recommendations, not requirements. States believe they are not obligated to follow up
              to ensure nursing facility compliance. One State is currently undergoing a pilot
              tracking program to determine if they need to oversee mental health treatment
              delivered to individuals whom the State recommends receive specific services. A
              respondent from that State’s Medicaid Agency reported that they have not reviewed
              their system in 12 years and believe that it is “alarming that no one knows what
              happens once the letter [with treatment recommendations] is sent.” A respondent
              from another State reported that they have “never tested the [PASRR] process
              enough” and “never bothered to enforce legislation.” In addition, the respondent felt
              that the PASRR is “politically unpopular with the State’s legislature” who “do not see
              the need” for the process and think that the PASRR is “too paper heavy.”

    States rely on surveyors to monitor PASRR process; surveyors report that it is
    not their responsibility

              In four of the five case study States, State mental health authorities and Medicaid
              Agencies said they relied on the State nursing home survey agency to monitor the
              PASRR process. One SMHA relies on surveyors to ensure that Level II
              recommendations of treatment are implemented. However, the surveyors we
              interviewed from this State reported that they did not follow up to review the
              implementation of treatment recommendations and were not familiar with the PASRR
              process. Surveyors in all case study States reported that monitoring the Level I
              PASRR process was not their responsibility. Only 1 out of 25 survey agencies in our
              larger sample reported that they had responsibility to monitor the Level I PASRR
              process.

              In addition, State agencies rely on surveyors to monitor whether an individual with
              mental illness has undergone a significant change in their mental health status and has

         31
                  In KS and MN trained Area on Aging staff complete the Level I PASRR screen.



PASRR Implementation and Oversight                      18                                      OEI-05-99-00700
              a Level II reassessment. Most surveyors, however, report that they do not look for
              instances of “significant change” in a resident’s mental illness status and then to see if
              a Level II PASRR has been appropriately triggered. In addition, the Level II PASRR
              reassessment is not an element of the OBRA 1996 survey. While some State
              surveyors are aware of the need for a Level II reassessment in certain circumstances,
              they are unclear what these circumstances are and what mechanism should be used by
              the nursing facility to trigger the reassessment. In four of the five case study States,
              surveyors indicated that there are no guidelines for them with reference to the PASRR
              to indicate when there is a significant change that should warrant reassessment. In one
              case study State, surveyors indicated that they check to see if a Level II PASRR
              reassessment should have been completed for sampled residents with a mental illness.
              These surveyors were specifically trained by the regional HCFA office on PASRR and
              mental health issues in nursing facilities.

              In most case study States, both surveyors and nursing facilities expressed concern that
              the surveyors were not adequately trained to assess the appropriate care needs of
              younger residents with mental illness. Surveyors do not usually have a mental health
              background or mental health training, nor are they accustomed to evaluating the needs
              of younger individuals. Most case study surveyors we spoke with report that they are
              not trained to review PASRR forms, primarily because it is not part of the OBRA
              1987 survey process. Some nursing facility respondents in facilities with a significant
              number of individuals with mental illness, report that they are more knowledgeable
              than the surveyors about treating these individuals. One facility reported that they
              “would like more feedback and suggestions from the surveyors.”

    Survey requirements do not include review of PASRRs forms or process

              The current State Operations Manual sampling criteria requires that surveyors sample
              only one resident with mental illness per nursing facility.32 For the most part,
              surveyors use a geriatric model when conducting a survey and reviewing their sample
              files. In case study States, surveyors report that they focus on traditional issues and
              services offered to nursing facility residents such as dehydration, medication reduction,
              and group social activities. One State respondent believes that surveyor reviews
              mainly look at what medications rather than mental health services are provided to
              residents. In one State, surveyors reported that “it was no longer a [Federal] mandate
              to include any individuals with mental illness in their sample.”

              Surveyors may be unaware of recent regulations in the State Operations Manual citing
              the requirement to look at PASRRs if available during the pre-site stage of their
              survey. According to the State Operations Manual, the PASRR is one of eight
              information sources used to focus the survey for Offsite Survey Preparation. If the
              PASRRs are available,” surveyors are directed to “evaluate if there are any potential
              concerns and note names of residents for possible inclusion in the sample."

         32
                  State Operations Manual, Appendix P Survey Protocol for Long-term care.



PASRR Implementation and Oversight                      19                                  OEI-05-99-00700
              Surveyors report that there is not a survey category in which to cite that an individual
              with mental illness is inappropriately placed in a nursing facility. Due to already
              stringent OBRA 1987 survey requirements, surveyors from one State reported they
              would need to have a larger sample size if they were going to purposively sample
              younger residents with mental illness. One State surveyor reported that she can cite
              the facility only for not providing appropriate mental health services. She cannot cite
              an inappropriate placement.

              Surveyors do not focus on whether a resident’s care plan incorporates Level II
              PASRR recommendations for mental health services. Four of the five surveyor teams
              we interviewed were aware of the Level I PASRR forms and the Level II
              determination letters, but did not routinely review them. One State surveyor team, in a
              State with one of the highest national placement rates of individuals with mental illness
              in nursing facilities, was unfamiliar with the PASRR process. These surveyors
              reported that they had been handed a folder labeled “PASRR” by their supervisor
              before their current site visit, but had not reviewed the included information. They did
              not modify their review procedures despite being at a facility where every resident had
              a mental illness diagnosis and most were under age 55.

              Three of the four survey teams we interviewed mentioned issues related to the PASRR
              as part of their review including: whether individuals were identified as needing
              specialized services; that they could not locate some of the forms or that they were
              incomplete; and that they differed by county. One State surveyor reported that
              surveyors from their State do not review the PASRR because they assume that the
              PASRR has already been properly completed and is in place. Surveyors from this
              State further assume without verification, that if a resident has been accepted by the
              facility, then the facility is capable of providing the needed mental health care.

    States do not ensure that PASRR Level II reassessments are appropriately
    triggered

              States do not have a mechanism to ensure that Level II PASRR reassessments are
              appropriately triggered. Nursing facilities are required to “promptly” notify the State
              mental health authority if there is a “significant change in the resident’s physical or
              mental condition.”33 Respondents from four case study States question a nursing
              facility’s incentive to notify the State mental health authority about the change in
              status of a resident if, for example, their case mix is determined on a 6 month basis or
              if they rely on the resident remaining in the facility as a valuable income source. Other
              State respondents believe that nursing facilities have an incentive to report a resident’s
              change rather than face potential penalties from deficiencies identified through the
              survey process or face treatment difficulties of a resident whose behavior has become
              difficult to manage. Many nursing facilities, surveyors and State agencies



         33
                  The Nursing Home Facility Resident Act, P.L. 104-315



PASRR Implementation and Oversight                      20                                 OEI-05-99-00700
               indicate that the definition of “significant change” for nursing facility residents with
               mental illness and the criteria to trigger a Level II PASRR reassessment are unclear.

               Four case study States and one survey State expressed frustration that there has been
               minimal guidance or directive from HCFA on what defines significant change and what
               should trigger a Level II PASRR reassessment since the repeal of the annual review
               requirement. The HCFA has not provided a specific definition for significant change
               for PASRR purposes, nor do they believe that it is necessary.

               In 1996, HCFA offered clarification to the States concerning the need for a resident
               reassessment when there is a “significant change in a resident’s physical or mental
               condition,” but left States the flexibility to establish their own criteria.34 In earlier
               guidance, HCFA indicated that States may establish criteria that will determine
               whether a resident’s “significant change” could effect the determination of appropriate
               nursing facility placement and/or the resident’s need for specialized services, and thus
               trigger a Level II PASRR reassessment.35 As a follow-up, HCFA indicated “that when
               the nursing facility resident assessment (the MDS) indicates that a more immediate
               annual resident review is warranted, the facility should alert the SMHA. The HCFA
               further directed the States to consider that “judgment is... required in determining
               when reviews [reassessments] are appropriate and when a more thorough annual
               resident review is required.”36

    State mental health authorities do not accept oversight responsibility

               Survey respondents from 22 States report that Level II PASRR responsibility rests
               with the State mental health authorities. However, most SMHAs in our case study
               States do not consider it their responsibility to monitor or provide treatment for
               residents of nursing facilities with mental illness. Despite having primary responsibility
               for providing treatment and long term care options to individuals with mental illness,
               most SMHA decline responsibility for residents with mental illness in nursing facilities
               and instead rely on facilities to provide needed services without their oversight. One
               SMHA reported that Federal regulations do not connect nursing facilities to State
               mental health authorities. Subsequently, this SMHA is not involved in ensuring that a
               Level II PASRR reassessment is completed when necessary. Some of the SMHA
               representatives that we interviewed were not able to answer basic process questions
               regarding the PASRR process.




         34	
                  December 23, 1996 HCFA, Office of Long-Term Care Services, Medicaid Bureau Memorandum
                  to All Associate Division of Medicaid Regional Administrators
         35
                  March 23, 1990 Federal register proposed rule.
         36	
                  December 23, 1996 HCFA, Office of Long-Term Care Services, Medicaid Bureau Memorandum
                  to All Associate Division of Medicaid Regional Administrators



PASRR Implementation and Oversight                       21                                 OEI-05-99-00700
              A few States violate Federal regulations by inappropriately delegating the authority
              both to conduct the Level II PASRR evaluations and make determinations regarding
              appropriate placement and specialized services. Responsibility for the Level II
              PASRR mental health evaluation and determinations rests with the State Medicaid
              agency who most frequently delegate this responsibility to the SMHA.37
              Determinations must be made by the SMHA based on an independent evaluation
              performed by an entity other than the State mental health authority. Three States
              responding to our survey report that nursing facilities complete the Level II PASRR
              evaluation. This directly violates regulations that prohibit the State from delegating
              this responsibility to a nursing facility or any entity that has a direct or indirect
              affiliation with a nursing facility.38 In addition, in one of the five States we visited, the
              Level II placement determination is made by the State Agency on Aging, without the
              State mental health authority’s approval.

              Two case study States report that the county mental health authority has responsibility
              for ensuring individuals are getting services either from the nursing facility or through
              county-contracted services. States with county-run mental health systems, report
              there is little oversight over the activities of the counties. In one case study State,
              counties can even design their own forms. Two States indicated that the county
              mental health programs review PASRRs and “pull a sample of charts.” However, the
              State Agencies do not monitor the county’s activities and many nursing facilities were
              not aware of the review process.

              One State Medicaid agency reported that they “should be asking counties about
              numbers of referrals.” In addition, they stated that they “did not know about the
              adequacy of services being provided, because they don’t get enough feedback. The
              [PASRR] system is designed to prevent admission, [not to inform the State if residents
              are] getting psychological therapy.” Surveyors report seeing Statewide variation in
              the involvement of community mental health centers in nursing facilities. Nursing
              facilities report that, although it rarely occurs, some counties provide mental health
              services to residents who were county clients before nursing facility admission.

    HCFA does not monitor the PASRR process

              The HCFA regional offices and headquarters do not monitor the PASRR process or
              provide guidance to the States. All of the HCFA regional office PASRR contacts
              reported that they have limited knowledge of current State PASRR processes.
              Despite an annual report requirement, HCFA regional offices report that they are not
              collecting an annual report from States. The HCFA headquarters reported that it
              never made the required report to Congress. In the statute, State reporting
              requirements are minimal and focus on discharge of this population from nursing


         37
                  42 C.F.R. §483.112 (1999).
         38
                  42 C.F.R. §483.106(d)(1)(iii) (1999).



PASRR Implementation and Oversight                        22                                  OEI-05-99-00700
             facilities. There is no standard report form and HCFA respondents indicated that
             when the reports were being collected, in the early 1990s, the little information they
             did receive was not particularly useful.

             Some regional office staff report that monitoring visits that were made during the early
             1990's enabled them to better assist the States with the provision of technical
             assistance. Recent agency reorganization, downsizing and shifting priorities eliminated
             the regional office monitoring component. One regional office provided training for
             surveyors specifically covering techniques for reviewing the PASRR process. Both
             surveyor agency staff and on-site surveyors from a case study State in this region
             report this training was beneficial.

    State Long-Term Care Ombudsmen primarily focus on geriatric residents

             State Long-Term Care Ombudsmen report that they primarily focus their attention on
             the needs of geriatric nursing facility residents. In our case study States, LTC
             Ombudsmen report that they have not received a sufficient number of complaints to
             warrant their concern for younger individuals, ages 22 to 64, with mental illness or
             geriatric residents regarding issues related to this population. Federal LTC
             Ombudsman reporting system complaint categories include PASRR, mental health
             services and three other general categories which the Federal Agency on Aging
             indicated “might also pick up problems due to mental health.” However, State LTC
             Ombudsmen indicated that younger individuals with mental illness are not generally a
             population whose concerns they normally address. Fourteen of 22 State LTC
             Ombudsmen could not report how many complaints they had received either from
             geriatric residents or individuals with mental illness regarding issues related to mental
             illness.




PASRR Implementation and Oversight                  23                                    OEI-05-99-00700
                            RECOMMENDATIONS

             We based our findings on a purposive sample and have not made a statistical
             projection. Nonetheless, our findings raise serious concerns that warrant further
             attention. States make placement decisions and nursing facilities provide care with
             little oversight for younger individuals with mental illness. State implementation of
             preadmission screening and resident review (PASRR) systems, the primary mechanism
             to ensure appropriate nursing facility placement and address mental health needs, is
             inadequate. The Federal definition of serious mental illness and the commonly held
             perception that the PASRR is more of an eligibility indicator than an evaluation tool,
             contribute to the ineffectiveness of States to identify an individual’s mental health
             status, make necessary mental health assessments and oversee needed mental health
             treatment. Finally, States’ definitions of specialized services may limit the opportunity
             for individuals to access mental health services.

             The PASRR process functions with little State or Federal oversight to ensure that
             younger individuals, ages 22 to 64, with mental illness are appropriately screened,
             evaluated and placed in nursing facilities. States do not systematically monitor the
             PASRR process, instead they rely on surveyors, whose guidelines do not include the
             review of PASRR forms or processes, to assess the issues facing this population.

    Improve States’ capacity to identify individuals with mental illness and
    determine appropriate facility placement

             To improve the effectiveness of the PASRR process to identify individuals with mental
             illness and determine appropriate facility placement, we recommend that HCFA:

             C         ensure completion of the Level I PASRR screens and that they completed prior
                       to nursing facility admission;
             C         develop guidance under which the Level I PASRR screen should be completed
                       by a mental health professional;
             C	        require that Level II PASRR be triggered if at least one indicator of serious
                       mental illness is identified, per a standard definition provided by SAMHSA
                       (through the Center for Mental Health Services). In particular, HCFA should
                       eliminate the Federal requirements that an individual has been hospitalized in
                       the past 2 years, and that they have had a functional limitation in the past 3 to 6
                       months due to their mental illness;
             C	        outline and enforce State requirements for Level II PASRR evaluation
                       summary reports that are to be shared with the admitting nursing facility; and
             C	        provide technical assistance to help States develop a formal mechanism to
                       share the results of PASRR screens with the survey agency. This will facilitate
                       surveyors’ ability to evaluate whether there are any potential




PASRR Implementation and Oversight                     24                                   OEI-05-99-00700
                       concerns and note names of residents for possible inclusion in their sample of
                       nursing facility residents.

    Improve oversight of the PASRR process and access to mental health
    treatment

             To improve the oversight of and access to mental health treatment, we recommend
             that HCFA:

             C         provide regional PASRR training to surveyors;
             C         require surveyors to ensure that PASRR Level I identification screen is
                       completed for all nursing facility residents;
             C	        require nursing facilities to use the Level II PASRR assessment and
                       recommendations in care planning and provide findings to the State Medicaid
                       agency. The State Medicaid agency should ensure that technical assistance is
                       provided to nursing homes or designate the State mental authority to provide
                       such technical assistance;
             C	        provide States with technical assistance to develop additional mechanism(s) to
                       monitor the PASRR process both at admission and throughout a resident’s stay
                       at a nursing facility (see Appendix for example);
             C	        add survey regulations that require State surveyors to ensure care plan
                       compliance with all Level II PASRR recommendations; and
             C	        convene regular stakeholder meetings with State Agencies, regional offices,
                       Ombudsmen, and Protection and Advocacy agencies, to discuss the
                       effectiveness of the PASRR process.

    Ensure that placement of an individual with mental illness in a nursing facility
    is not a means of avoiding responsibility for the provision of specialized
    mental health services

             To ensure that placement of an individual with mental illness in a nursing facility is not
             a means of avoiding responsibility for provision of specialized services, HCFA should:

             C	        define specialized services, with mental health provider input, that is to be
                       provided by the State and made available to individuals with serious mental
                       illness residing in nursing facilities.

    Improve ability of nursing facilities to identify significant change and to make
    appropriate referrals

             To improve nursing facilities ability to identify and appropriately refer nursing facility
             residents whose mental health condition changes, HCFA should:

             C	        clarify the definition of significant change and implement a mechanism to
                       ensure a Level II PASRR is completed;



PASRR Implementation and Oversight                    25                                   OEI-05-99-00700
             C         modify the MDS form to identify a significant change in mental health status,
                       triggering a Level II PASRR reassessment;
             C         update the State Medicaid Manual to provide related guidance on triggering a
                       Level II PASRR reassessment; and
             C         develop a Resident Assessment Protocol (RAP) for mental health status.

    Improve Federal monitoring and oversight

             To improve Federal monitoring and oversight, we recommend that HCFA:

             C         clarify the role and responsibilities of regional HCFA PASRR contacts;
             C	        require the annual PASRR report to include data regarding the number of
                       Level I and II PASRRs completed and the placement and treatment results by
                       age;
             C	        standardize the annual report and ensure that it is completed and monitored
                       annually by the HCFA regional office; and
             C	        reconsider adding a PASRR compliance and enforcement component to State
                       nursing facility report cards for inclusion on HCFA’s Nursing Home Compare
                       web site if further study indicates the need to report this information to the
                       public.

             To improve implementation and oversight of the PASRR process, HCFA should
             specify which unit(s) within HCFA have responsibility for ensuring that:

             C         States are appropriately implementing PASRR;
             C	        all appropriate PASRR paperwork and, consequently the justification for
                       nursing facility placement, specialized services and other mental health
                       treatment if applicable, is properly completed; and
             C	        nursing facilities and States comply with PASRR determinations and
                       recommendations for mental health services.

    Improve Level II PASRR process and ensure compliance with Olmstead
    Decision

             To improve State Medicaid agencies ability to ensure compliance with the Olmstead
             Decision HCFA should:

             C	        require that State Medicaid agencies collaborate with State mental health
                       authorities to identify and maintain a list of alternative community based
                       treatments, including the Medicaid and Community-Based Waiver, and to track
                       the level of need and availability of such resources.

             To improve State mental health authorities’ ability to make appropriate Level II
             PASRR placement, specialized service and mental health treatment determinations,
             SAMHSA should within its statutory authority over SMHAs:



PASRR Implementation and Oversight                   26                                  OEI-05-99-00700
             C         provide guidance to SMHAs including model practices and standards on
                       appropriate treatment, specialized and other mental health services;
             C         emphasize the importance of supporting this population to the Protection and
                       Advocacy agencies; and
             C         periodically review SMHA Level II determinations and provide technical
                       assistance to SMHAs.

             To improve nursing facilities’ ability to identify and appropriately refer nursing facility
             residents whose mental health conditions change, SAMHSA should:

             C	        provide guidance to SMHAs regarding identifying alternative treatment
                       options for individuals being considered for placement in nursing facilities.

    Clarify Agencies’ roles and responsibilities within the Department in
    overseeing the PASRR process

             To improve implementation and oversight of the PASRR process, the Department
             should determine and delineate HCFA and SAMHSA’s responsibilities in overseeing
             PASRR determination.




PASRR Implementation and Oversight                     27                                   OEI-05-99-00700
                            AGENCY COMMENTS

             We received comments from the Health Care Financing Administration and the
             Substance Abuse and Mental Health Services Administration. The HCFA and
             SAMHSA concur with the majority of our recommendations. We feel that HCFA and
             SAMHSA’s commitment to the effectiveness of the PASRR process is of particular
             importance in light of the Olmstead Decision. Where appropriate we changed the
             report to reflect both HCFA and SAMHSA’s comments. The full comments received
             from HCFA and SAMHSA are contained in Appendix B.

             The HCFA believes our recommendations will “help [them] make sound policy
             decisions about how best to protect the interests of younger Medicaid beneficiaries
             who have a serious mental illness...and reside in nursing facilities.” In addition, HCFA
             will “attempt to augment [our] recommendations with companion efforts that would
             expand community alternatives and will coordinate planning for PASRR improvements
             with those community service improvement efforts.”

             We would like to commend HCFA on their assistance in conducting this study and for
             providing us with substantive and insightful comments.

             The HCFA concurred in full with 24 of the 30 ways to achieve our recommendations.
             The agency proposes an alternative solution or will take under further consideration
             the following 6 recommendations with which they do not concur:

             The HCFA does not concur with our recommendation to develop guidance under
             which the Level I PASRR screen should be completed by a mental health professional.
             The HCFA does not believe it is necessary for a mental health professional to conduct
             the Level I screen that identifies persons who are suspected of having a mental illness.
             We believe that at present, there is little evidence that these screens are being
             completed by individuals who are trained to diagnose possible mental illness and
             subsequently trigger the necessary Level II PASRR mental health evaluation. We have
             kept the recommendation as previously stated.

             The HCFA does not concur in whole with our recommendation that a Level II PASRR
             be triggered if at least one indicator of serious mental illness is identified. They agree
             with our recommendation to eliminate the requirement that a person has been
             hospitalized in the past 2 years. However, they believe that a person who does not
             have a functional limitation should be permitted access to a nursing facility if they meet
             that level of care criteria. While we agree that individuals with a serious mental illness
             diagnosis who do not have a functional limitation may be appropriate for nursing
             facility residency, we still believe that based on their serious mental illness diagnosis
             these individuals should still have a Level II PASRR evaluation to determine needed
             mental health services.



PASRR Implementation and Oversight                  28                                   OEI-05-99-00700
             The HCFA proposes an alternative to our recommendation to require that States share
             the Level II PASRR mental health evaluation with the admitting nursing facility. The
             HCFA believes it would be an unnecessary burden to require such documentation be
             copied and sent for every person evaluated. Instead, they propose to take action
             through a State Medicaid Director letter and subsequent changes in the State Medicaid
             Manual. We support HCFA’s proposed actions and agree that if the current
             regulations requiring a detailed summary report are enforced, as outlined in HCFA’s
             comments, then nursing facilities should have sufficient information regarding the
             outcome of the Level II PASRR mental health evaluation.

             The HCFA does not concur with our recommendation to define specialized services,
             with mental health provider input, to be provided by the State and made available to
             individuals with serious mental illness in nursing facilities. They believe that States
             should define specialized services as 24-hour inpatient psychiatric treatment in order to
             prevent individuals needing intensive mental health services from residing in nursing
             facilities. While we agree that intensive mental health services are difficult to provide
             in a nursing facility, our recommendation speaks to those individuals with serious
             mental illness who are already residents of a nursing facility or who require nursing
             facility care because of a comorbid physical condition. We believe that
             appropriateness of nursing facility placement does not preclude an individual’s need
             for intensive mental health services in that setting. Therefore, we are keeping the
             recommendation as written.

             The HCFA does not concur with our recommendation to add a PASRR compliance
             and enforcement component to State nursing facility report cards for inclusion on
             HCFA’s Nursing Home Compare web site. We support HCFA in their willingness to
             reconsider adding this component if further study indicates the need to report this
             information to the public.

             The HCFA would like to further review our recommendations pertaining to the MDS
             and “significant change” requirements for PASRR. Specifically they would like to
             consider further our recommendations to: 1) clarify the definition of significant change
             and implement a mechanism to ensure a Level II PASRR is completed; 2) modify the
             MDS form to identify change in mental health status, triggering a Level II PASRR
             reassessment; and 3) develop a Resident Assessment Protocol (RAP) for mental health
             status. We request that at the time HCFA submits the action plan, they provide us
             with an updated assessment of these items.

             Our recommendation to improve the Level II process and ensure compliance with the
             Olmstead Decision directs specific recommendations to SAMHSA. The SAMHSA
             agrees in full with 5 of the 6 specific recommendations that apply to them. In addition,
             SAMHSA concurs with our Departmental recommendation to determine and delineate
             HCFA and SAMHSA’s responsibilities in overseeing PASRR determinations.




PASRR Implementation and Oversight                  29                                   OEI-05-99-00700
             We would like to thank SAMHSA for their assistance in conducting this study and for
             providing us with supportive comments.

             The SAMHSA agrees that there are problems with Level I and II PASRR
             documentation and implementation and is committed to insuring a common
             understanding of the PASRR requirements, goals and objectives. The SAMHSA is
             working together with HCFA in addressing the Olmstead Decision and other key areas
             regarding behavioral health services. The SAMHSA looks forward to utilizing their
             partnership to address how SAMHSA can support HCFA in implementing the PASRR
             process.

             The SAMHSA concurs with our specific recommendations for their role in improving
             the ability of State mental health authorities (SMHAs) to make appropriate Level II
             PASRR placement, specialized service and mental health treatment decisions. They
             further agree that they should provide guidance to SMHAs to identify alternative
             treatment options for individuals being considered for placement in nursing facilities.

             The SAMHSA does not concur with our recommendation that they annually review
             SMHA Level II determinations. They believe this recommendation overstates their
             statutory responsibility for the PASRR process as the regulations do not require such a
             review. We agree that SAMHSA does not have the authority to make administratively
             binding assessments of the acceptability of these determinations, nor the resources to
             conduct annual reviews of each. We have therefore, changed the recommendations to
             reflect their broader mandate to provide guidance and support to SMHAs in providing
             care to all individuals with mental illness in any treatment setting.

             We feel that SAMHSA’s commitment to the effectiveness of the PASRR process is of
             particular importance in light of the recent Olmstead Decision. We believe SAMHSA
             has a responsibility to ensure the appropriate care for individuals with mental illness in
             any treatment setting and should use its expertise to support the Level II PASRR
             process. In this vein, we believe that periodic reviews of some or all such
             determinations could serve as a useful basis for developing appropriate guidance.

             We support SAMHSA’s proposed actions for meeting our recommendations.

    .




PASRR Implementation and Oversight                   30                                   OEI-05-99-00700
                                                                               APPENDIX A

       One State has a special oversight branch to monitor the

                          PASRR process


             One case study State has a special oversight branch to monitor the PASRR process.
             In Pennsylvania, the Utilization Management Review (UMR) Section, during quarterly
             onsite visits, verifies that Level I PASRRs exist for all new admissions and that they
             are completed correctly. During their facility visits, UMR representatives monitor the
             Level I PASRRs, Minimum Data Set (MDS) and the determination letters from the
             Mental Health, Mental Retardation or Social Services Program offices. This ensures
             that residents require nursing facility care and the nursing facility can provide any
             specialized services that are required. The UMR also monitors the Level II
             assessments in conjunction with contracted mental health specialists who are brought
             in on a case by case basis. In addition, the UMR representatives do an “in-depth chart
             review” to ensure documentation is present to support MDS entries. Review of the
             MDS could result in a Level II reassessment.




             For further information please contact:
             The Pennsylvania Department of Health
             Division of Nursing Care Facilities
             717-787-1816




PASRR Implementation and Oversight                 31                                 OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          32              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          33              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          34              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          35              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          36              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          37              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          38              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          39              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          40              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          41              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          42              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          43              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          44              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          45              OEI-05-99-00700
                                                        APPENDIX B

                                     Agency Comments





PASRR Implementation and Oversight          46              OEI-05-99-00700
